Supreme Court, U.S.
FILED

JAN 1 1 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Mindy Hill - PETITIONER
Vs.
Google, LLC et al - RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

DC COURT OF APPEALS

PETITION FOR WRITOF CERTIORARI

Mindy Hill
1723 27th Street, SE #302
Washington, DC 20020

QUESTION(S) PRESENTED

1. Whether the court should resolve the following for which the state
courts are dominated by Google’s financial endeavors, and further use
of TikTok TERMS OF SERVICE; if Google’s YouTube TERMS OF
SERVICE poses safety concerns and violated Ms. Hill’s first
amendment rights to freedom of the press and abridging freedom of
speech by Google’s YouTube sharing-streaming service generated
automatic closed captioning “glitch” appeared on MGM video uploaded
to YouTube sharing-streaming service on December 8, 2016, when Ms.
Hill stated “What’s up DC this is your girl Mindy Jo with the DC Voice
dot com, ” and YouTube’s automated closed captioning “glitch”
translated that communication into “What's up DC bitch girl maybe gel
with?”
2. Whether Civil Rules of Civil Procedure are modified, exclusionary or
certain rights are reserved based on names in filing of complaint. If
not, were Ms. Hill’s fourteenth amendment rights to the United States
Constitution violated bypassing the Trial phase of Civil Procedure
resulting in Judge Anthony Epstein’s JUDGEMENT for Google LLC et
al when plaintiffs complaint filed CASE CAPTION is Google Inc. et al
when all persons born in the United States and subject to the

jurisdiction thereof, are citizens of the United States and of the State
wherein they reside.

3. Whether Google’s YouTube automated closed captioning “glitch”
violated Ms. Hill’s fifth amendment rights to the United States
Constitution granting no person shall be deprived of life, liberty, or
property in her pursuit to life, liberty as an journalist while working on
December 8, 2016 covering the MGM National Harbor Grand Opening,
later uploading the original digital content to the YouTube video
sharing-streaming service resulting in the closed caption automatically
generating a “glitch,” and no ability to monetize on original digital
content uploaded to Google’s YouTube video sharing-streaming service.

LIST OF PARTIES

Google Inc. et al

YouTube Inc. et al

TABLE OF CONTENTS

OPINION BELOW

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTIORY PROVISIONS INVOLVED

STATEMENT OF THE CASE

5

REASON FOR GRANTING THE WRIT

CONCLUSION

23

24

INDEX TO APPENDICES
State Court of Appeals........

Appendix la

State Court Denying Review

. Appendix 2a

4

TABLE OF AUTHORITIES CITIED
CASES
Andrew v. American Imp. Ctr., 110 A.3d 626, 633 n.8 (D.C. 2015)
Bell Atl. Corp v. Twombly, 550 U.S. 544, 570 (2007)
Bremen u. Zapata Off-Shore Co., 407 U.S. 1, 18, (1972)).
Christopher v. Aguigui, 841 A. 2d 310,311 n.2 (D.C. 2003)
Clawson v. St. Louis Post-Dispatch, LLC, 906 A.2d 308, 313 (D.C. 2006)
District of Columbia v. Harris, 770 A. 2d 82,87 (D.C. 2001)
Duncan v. Children’s Na’l Med. Ctr., 702 A. 2d
Forrest v. Verizon Communications, Inc., 805 A. 2d 1007, 1010 (D.C. 2002)
Guilford Transp. Indus., Inc. v. Wilner, 760 A. 2d 580, 591 (D.C. 2000)
Hollins v. Federal Nat’l Mortg. Ass’n, 760 A.2d 563, 572 (D.C. 2000)
Howard University v. Best, 484 A.2d. 958, 989 (D.C. 1984)
Oparaugo v. Watts, 884 A. 2d 63, 76 (D.C. 2005).
Parker v. K&L Gates, LLC 76 A. 3d 859, 866 (D.C. 2013)
Potomac Dev. Corp. v. District of Columbia, 28 A.3d 531, 543-44 (D.C. 2011)
Riggs Nat’l Bank of Washington, D.C. v. District of Columbia, 581 A.2d 1229,
1251 (D.C. 1990)
Songfi, Inc. v. Google Inc., 72 F. Supp. 3d 53, 63 (D.C. Cir 2014)
Urban Invs., Inc. v. Branham, 464 A.2d 93, 99 (D.C. 1983).

STATUTES AND RULES
Federal Rules of Civil Procedure Rule 1
15 U.S.C §7 et seq. (1890)
18 U.S.C §§ 2510-2520 (1986)

47 U.S. C § 151 et seq. (1934)
17 U.S. C § 101 et seq. (1976)
28 U.S.C § 2101 (e)
28 U.S.C § 1746
S.C.R 14
S.C.R 13 (1) (3)

OTHER
CG Docket No. 03-123
CG Docket No. 10-51
CG Docket No. 12-38
S. 421
S. 3744
S.3765
S. 4772
S. 3632
H.R. 6624
H.R. 7310
H.R. 8719
H.R. 6032
H.R. 8636
H.R. 8515
H.R. 8517

1.
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issues to review the
judgment below.
OPINIONS BELOW
The opinion of the state court to review the merits appears at Appendix A to
the petition and is reported at
PER CURIAM: Appellant, Mindy Hill, initiated a civil action against
Google, LLC and YouTube, LLC alleging negligence and defamation arising
from her use of an automated closed-captioning function available for videos
uploaded to YouTube. After appellant acknowledged that she voluntarily
signed the YouTube Terms of Service, the trial court issued a final order
finding those terms enforceable and granting appellees’ limited motion for
summary judgment. For the reasons detailed below, we affirm.
I.
Appellant uploaded a video to YouTube in December 2016. In December
2016 she filed a complaint against Google, LLC and YouTube, LLC’s holding
company, Alphabet, Inc., seeking damages for defamation. After the initial
claim was dismissed, appellant filed anew against Google, LLC and YouTube
LLC on May 26, 2017. Her amended complaint asserted liability based on

negligence and defamation arising from YouTube’s automated closedcaptioning function that transcribed her spoken words, “What’s up DC this is
your girl Mindy Jo with the DC Voice dot com” as, “What’s up DC bitch girl
maybe gel with.” Appellees moved to dismiss on multiple grounds, one of
which being that appellant’s claims were barred by the YouTube Terms of
Service. Those terms provide that YouTube disclaims any express or implied
warranties for its services and is not liable for any
damages resulting from errors, mistakes, or inaccuracies of content based on
any legal theory, including tort.
After the trial court failed to issue a written order on these grounds for
dismissal, appellees filed a limited motion for summary judgment focusing on
the contractual enforceability of the YouTube Terms of Service. Based on
facts asserted by appellees that appellant failed to dispute, the trial court
found the contractual provisions enforceable because appellant had been free
to accept or decline them when she signed up for YouTube and again when
she enrolled in YouTube’s Partner Program. Furthermore, it found that these
terms were not outrageously unfair since it is not unreasonable for appellees
to protect themselves from liability for inadvertent or isolated transcription
errors like the one at issue.
On appeal, appellant argues that the trial court erred because there was

sufficient evidence to find appellees liable for defamation, libel, and
negligence. She also argues that summary judgment was improperly granted
because appellees’ names on the docket were changed from Google, Inc. and
YouTube, Inc. to Google, LLC and YouTube, LLC, counsel for appellees did
not appear in court on a given date, and there was allegedly collusion
between appellees and the government of the District of Columbia to
interfere with the lawsuit. Because appellant raises these last claims for the
first time on appeal, they are waived. Hollins v. Federal Nat’l Mortg. Ass’n,
760 A.2d 563, 572 (D.C. 2000)
(“Ordinarily, arguments not made in the trial court are deemed waived on
appeal.”). Therefore, our analysis will be limited to the first issue raised.
II.
“Whether summary judgment was properly granted is a question of law, and
we review de novo a decision granting such relief.” Guilford Transp. Indus.,
Inc.v. Wilner, 760 A.2d 580, 591 (D.C. 2000) (brackets omitted). “In order to
be entitled to summary judgment [,] the moving party must demonstrate that
there is no genuine issue of material fact and that it is entitled to judgment
as a matter of law.” Id. at 592 (brackets omitted).
III.
An adhesion contract is a “standard-form contract prepared by one party, to

be signed by another party in a weaker position, usu[ally] a consumer, who
adheres to the contract with little choice about the terms.” Andrew v.
American Imp. Ctr.,110 A.3d 626, 633 n.8 (D.C. 2015) (citing ADHESION
CONTRACT, Black’s Law Dictionary (9th ed. 2009)). We consider the
YouTube Terms of Service to be an adhesion contract because they are
standard for all consumers, completely determined by YouTube, and offered
to consumers like appellant on a take-it-or leave- it basis. As such, we review
them for unconscionability. Riggs Nat’l Bank of Washington, D.C. v. District
of Columbia, 581 A.2d 1229, 1251 (D.C. 1990)
(“Such a contract may be one of adhesion, and is therefore subject to judicial
scrutiny for unconscionability.”).
A “contract may be unconscionable either because of the manner in which it
was made [i.e., procedural unconscionability] or because of the substantive
terms of the contract [i.e., substantive unconscionability] or, more frequently,
because of a combination of both.” Urban Invs., Inc. v. Branham, 464 A.2d 93,
99 (D.C.1983). “Usually, the party seeking to avoid the contract must prove
both elements: an absence of meaningful choice on the part of one of the
parties together with contract terms which are unreasonably favorable to the
other party.” Id.
(quotation marks omitted). “[T]he party seeking to avoid the contract will
have to show that the terms are so extreme as to appear unconscionable

according to the mores and business practices of the time and place.” Id. at
100 (quotation marks omitted). “Here, there was no procedural
unconscionability where the conditions for use of YouTube’s service were not
obscured or hidden, Plaintiffs had a clear opportunity to understand the
terms, and they did not lack a meaningful choice.”

Song fi, Inc. v. Google Inc., 72 F.Supp.3d 53, 63 (D.C. Cir. 2014). Likewise,
appellant in this case had the same opportunity to review the same
unobscured language before agreeing to it. Furthermore, it is apparently
common practice for companies such as Google or YouTube to include broad
liability disclaimers when offering their online services. 1 And appellant has
not made a showing sufficient to overcome summary judgment that such
disclaimers are so extreme as to appear unconscionable. Therefore, we do not
find the disclaimer of liability for inadvertent mistakes occurring in the use of
its free video uploading platform so extreme or out of line with today’s “mores
and business practices” for online platforms as to be substantively
unconscionable. Therefore, we affirm the decision below because, reviewing
the grant of summary judgment de novo, we conclude that there is no genuine
issue of material fact. The YouTube Terms of Service are enforceable, and as
such, they bar appellant’s claim for damages arising from a transcription
error when using the closed-captioning function on YouTube.

Affirmed.

1 “Judicial notice may be taken at any time, including on appeal.”
Christopher u. Aguigui, 841 A.2d 310, 311 n.2 (D.C. 2003). “A judicially
noticed fact must be one not subject to reasonable dispute in that it is either
(1) generally known within the territorial jurisdiction of the trial court or (2)
capable of accurate and ready determination by resort to sources whose
accuracy cannot reasonably be questioned.” Id. (citing Fed. R. Evid. 201(b)).
That disclaiming errors is common practice for online video platforms may
accurately and readily be determined by looking at comparable services. See,
e.g., Tik Tok Terms of Service, Section 9 Exclusion of Warranties, https://www.tiktok.com/legal/terms-of-use?lang=en
https://perma.cc/JEG8-QEVC (“IN PARTICULAR WE DO NOT REPRESENT
OR WARRANT TO YOU THAT . . . YOUR USE OF THE SERVICES WILL
BE . . . FREE FROM ERROR.”); Twitch Terms of Service, Section 15 —
Disputes,
https://www.twitch.tv/p/legal/terms-of-service/#15-disputes
https://perma.cc/RE5A-C9HT (“TWITCH DOES NOT REPRESENT OR
WARRANT THAT THE CONTENT OR MATERIALS ON THE TWITCH
SERVICES ARE .. . ERROR-FREE.”); and Vimeo Terms of Service, Section 9
Disclaimers, https://vmieo.eom/terms#disclaimers https://perma.ee/88DYD92X (“. . . Vimeo makes no representations or warranties . . . [t]hat our
Services .. . will be . .. error-free . .. .”).

2.

ORDER
On Consideration of appellant’s petition for rehearing or rehearing en banc,
and it appearing that no judge of this court has called for a vote on the
petition for rehearing en banc, it is
ORDERED by merits division* that the petition for rehearing is denied.
It is
FURTHER ORDERED that the petition for rehearing en banc is denied.
PER CURIAM

3.

JURISDICTION

The date on which the highest state court decided my case was October 27,
2020. A copy of that decision appears at Appendix la.

A timely petition for rehearing was thereafter denied on the following date:
December 3, 2020, and a copy of the order denying rehearing appears at
Appendix 2a.

The jurisdiction of this Court is invoked under 28 U.S.C § 1254 (1). By writ of
certiorari granted upon the petition of any party to a civil or criminal case
before or after rendition of Judgment.

4.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

17 U.S.C 101 “WIPO Copyright and Performance and Phonograms Treaties
Implemental Act of 1998. ”
42 U.S.C. § 1201 ET SEQ. (1990)
Federal Rules of Civil Procedure Rule 1
U.S. Constitution, 1st Amendment
U.S. Constitution, 5th Amendment
U.S. Constitution, 14th Amendment
15 U.S.C §7 et seq. (1890)
18 U.S.C §§ 2510-2520 (1986)
47 U.S. C § 151 et seq. (1934)
17 U.S. C § 101 et seq. (1976)
28 U.S.C § 2101 (e)
28 U.S.C § 1746

5.
STATEMENT OF THE CASE
1. Factual Background
The Petitioner, an American born to the parents of Vanessa and
Donald Hill through holy union in 1984 has grown with experience
as a journalist. A 2010 Graduate from the University of the
District of Columbia, College of Liberal Arts, and Mass Media
degree. Ms. Hill has served as Secretary for University of the
District of Columbia National Alumni Society (12-14), volunteered
for several years with the National Action Network Criminal
Justice Organization, and a former Congressional staffer for
Congresswoman Norton, and presented “When the Press Link Up”
three day social media conference at the University of the District
of Columbia in 2016 featuring the United States Copyright Office,
and content creators. Becoming a media entrepreneur since 2013
takes time, extradionary character, education, courage, dedication,
work ethic, creativity, and much determination especially in a
dynamic constantly evolving emerging digital media world. Our
selection for news has transition since the days of the printing
press, and there’s more accessibility and variety in consumer choice
for news nowadays beyond the extraterrestrial news desk.
Consumers have the option to select their news through Google’s

YouTube video sharing-streaming service preferably searching and
selecting Welcome to the Mindy Jo News Show despite the rank
listing. From that channel there are over 200 original digital
content clips with variations in length to select from. Ms. Hill
established a YouTube user account because of her pursuit of
happiness becoming a media entrepreneur providing news and
information about her community and the world, while in good faith
maximized her YouTube Channel potential through freelance work
offered by online news publication The DC Voice dot come with
viewership over 80,000.
Ms. Hill skimmed through in excitement and anticipation in
pursuit of happiness agreed to use Google’s YouTube video sharing­
streaming TERMS OF SERVICE at her sole risk being liable for
content in which she uploads to the user account. However, where
Google’s YouTube TERMS OF SERVICE deprived the first
amendment rights of Ms. Hill by generating their own automatic
closed captioning “glitch” “What’s up DC bitch girl maybe gel with?”
abridging her freedom of speech even infringing on her copyright
violating World Intellectual Property Organization Copyright
Treaty and Performance and Phonograms Treaties Implemental Act
of 1998, ” clause in their TERMS OF SERVICE, ultimately

obstructing the 47 U.S.C. § 151 et seq. (1934) Communication Act,
violating 42 U.S.C § 1201 et seq. (1990) American with Disabilities
Act leaving no regard or consideration for Federal Communication
Commission closed captioning regulations, mishandling of
electronic privacy 18 U.S.C. §§ 2510- 2520 (1986) and defying the
odds of 15 U.S.C. § 1 et seq. (1890) the Sherman Act through an
instrument adjustment during a civil litigation, entangling
Petitioner in two distinctive TERMS OF SERVICE one from
incorporation Google, YouTube, and another limited liability
corporation Google, YouTube, when complainant under oath signs
statement establishing alleged defamation, negligence, and libel
against Google Inc. et al, YouTube, Inc. et al.
On October 6, 2017, in Ms. Hill’s amended complaint she asserts
claims for negligence, libel and defamation against Defendants
Google Inc. and YouTube. She alleges that she “uses Defendants’
website to provide news and information about her community to
the world.” Ms. Hill uploaded a video on December 8, 2016 and used
the automated closed captioning service. “What’s up D.C. this is
your girl Mindy Jo with the DC Voice dot com...” was translated by
closed captioning software as “What’s up DC bitch girl maybe gel
with...” Ms. Hill asserts negligence on grounds that “Defendants

assumed a duty to provide clear and accurate closed captioning of
uploaded videos when they installed the feature on their website.”
The Defendants inability to provide accurate closed captioning
caused damage to Petitioners reputation and hindered her ability to
monetize her videos. She asserts defamation on grounds that “the
term D.C. bitch girl is a defamatory statement that all reasonable
persons would not want to be referred to in any setting.” Ms. Hill
avers that the alleged defamatory statement was published “shortly
after the video was uploaded to YouTube on December 8, 2016”
because the Video was available to the public.
On October 26, 2017 in consideration of Defendants Google Inc. and
YouTube Inc.’s’ [sic] [Renewed] Motion to Dismiss, The Court
construes “all facts and inferences in the light most favorable to the
plaintiff and takes the complaint’s allegations as true. ’’Duncan v.
Children’s Na’l Med. Ctr. . 702 A.2d207, 211 (D.C. 1977) (citation
omitted). To survive a motion to dismiss, a complaint must state a
claim to relief that is plausible on its face. Bell Atl. Corp v.
Twombly, 550 U.S. 544, 570 (2007). The court must be able to infer
the defendant’s plausible liability based on the complaint alone.
Potomac Dev. Corp. v. District of Columbia, 28 A. 3d 531, 543-44
(D.C. 2011).

1. Negligence
In order to establish a claim of negligence, Ms. Hill must assert
facts which demonstrate: (1) Defendants owed Ms. Hill a duty of
case; (2) Defendants breached that duty; (3) Ms. Hill suffered
damages as a result; and (4) Ms. Hill’s damages were proximately
caused by Defendants’ breach of duty. District of Columbia v.
Harris, 770 A.2d 82, 87 (D.C. 2001) (citations omitted).
Defendants argue that Ms. Hill fails to provide sufficient support
for the claim that Defendants were negligent. Defendant’s
argument is not persuasive. Petitioner alleges that Defendants
provide a platform to disseminate video content to the public and
provide closed captioning services to their members who upload
videos. Petitioner alleges that on December 8, 2016, she uploaded
the Video and used automated closed captioning service Defendants
provided. She alleges that her statement in the Video was
inaccurately translated by the automated closed captioning service.
Petitioner further alleges that inaccurate captioning damaged her
reputation and ability to profit from her videos. Ms. Hill alleges
sufficient facts to state a claim for negligence. If Petitioner’s factual
allegation are taken as true, there exists an inference that

Defendants owed the duty to Petitioner, that duty was breached,
and the breach proximately caused Petitioner’s damages. For the
purpose of the instant Motion, the Court construes the facts in the
light most favorable to Ms. Hill and does not pass on whether Ms.
Hill is likely to prevail on her negligence claim at trial. Duncan, 702
A.2d at 211.
2. Defamation
In order to establish a claim of defamation, Ms. Hill must assert
facts which demonstrate: (1) Defendants made a false and
defamatory statement concerning Ms. Hill; (2) Defendants
published the statement, without privilege, to a third party; (3)
Defendants’ fault in publishing the statement amounted to a least
negligence; and (4) the statement was actionable either as a matter
of law irrespective of special harm or that its publication caused
Ms. Hill special harm. Oparaugo v. Watts, 884 A. 2d 63, 76 (D.C.
2005).
A statement is defamatory if it tends to injure Petitioner in her
trade profession or community standing, or lower her in the
estimation of the community. Clawson v. St. Louis Post-Dispatch,
LLC, 906 A.2d308, 313 (D.C. 2006) (citations omitted). An allegedly
defamatory remark must be more than unpleasant or offensive; the

language must make the petitioner appear odious, infamous,
ridiculous. MOnly when the court can say that the publication is
not reasonably capable of any defamatory meaning and cannot
reasonably be understood in a defamatory sense, can it rule as a
matter of law that it was not libelous. Howard University v. Best,
484 A.2d. 958, 989 (D.C. 1984) (emphasis added). Defendants argue
that the alleged captioning error is insufficient to establish
defamation as a matter of law. Defendants’ argument is not
persuasive. Ms. Hill alleges that Defendants’ Platforms’ closed
captioning software translated her statement as “What’s up DC
bitch girl maybe gel with...” She asserts that she is a journalist who
utilizes Defendants’ platform and the captioning error damaged
Plaintiffs reputation. Taking Petitioner’s factual allegations as
true and drawing inferences in the light most favorable to the
Plaintiff, it cannot be concluded that the alleged defamatory
statement is insufficient as a matter of law. While Defendants
claim that the alleged captioning error is not more than unpleasant
or offensive, Petitioner claims that the error made her appear
ridiculous. Further, to the extent that Ms. Hill may be to prove
special damages, she need not prove defamation as a matter of law.
Oparaugo, 884 A.2d at 76.

Defendants further assert that Plaintiff fails to allege any causal
connection between the allegedly defamatory statement and any
specific damages. (Defs’ Mem. Of P. &A. at 9.) Defendants’
assertion is incorrect. Petitioner specifically alleges that the
publication of allegedly defamatory statement “hindered her ability
to monetize her videos.” (Am. Compl. At 6.) Specifically, Petitioner
alleges that after the Video was posted, the average view on her
videos significantly dropped. (Id.) Petitioner alleges sufficient facts
for a reasonable inference of damages. Whether Petitioner will
ultimately prevail on her damages claim is not considered here by
this court.
B. The Forum Selection Clause
Forum selection clauses are prima facie valid unless enforcement is
shown by the resisting party to be unreasonable under the
circumstances. Forrest v Verizon Communications, Inc., 805 A.2d
1007, 1010 (D.C. 2002). To demonstrate unreasonableness,
Petitioner would have to show that (i) [the clause] was induced by
fraud or overreaching, (ii) the contractually selected forum is so
unfair and inconvenient as, for all practical purposes, to deprive the
petitioner of a remedy or of its day in court, or (iii) enforcement

would contravene a strong public policy of the [forum] where the
action is filed. Id. At 1012. (Citations omitted).
The party resisting the enforcement of a forum selection clause
should demonstrate to the Court that trial in the contractual forum
will be “so gravely difficult and inconvenient that [she] will for all
practical purpose be deprived of [her] day in court.” Parker v. K&L
Gates, LLC, 76 A. 3d 859, 866 (D.C. 2013) (citing M/S Bremen v.
Zapata Off-Shore Co., 407 U.S. 1, 18, (1972)). Defendants assert
that “Petitioner’s suit must be dismissed because it is improperly
venue under the clause she agreed to as part of the YouTube Terms
of Service.” (Defs.s Mem. of P. & A. at 4.) Defendants state that
“the Terms of Service are an essential part of the bargain between
YouTube and its users, and a new user account will not be activated
absent electronic acceptance.” (Id. At 5.) Defendants state that the
Terms of Service prominently provide that “[a]ny claim or dispute
between you and YouTube that arises in whole or in part from the
Service shall be decided exclusively by a court of competent
jurisdiction located in Santa Clara County, California.” (Id. At 5;
Defs.’ Ex. A.) Petitioner admits that she accepted the Terms of
Service. (Pi’s. Resp. to Defs. Rule 12(b)(6) Mot. To Dismiss at 3.)
Petitioner asserts, however, that “in this matter a transfer of forum

under the Terms of Service would be unreasonable under the
circumstances because Petitioner is a person of limited means as
evidenced by her Pro Se representation in this matter...” (Am.
Compl. At 4.) Parker involved a partnership agreement between
defendant law firm and plaintiff former partner at the firm. 76
A.3d at 862. The partnership agreement contained a forum
selection clause that required plaintiff to litigate the case in the
District of Columbia. Id. At 866. Plaintiff claimed that enforcing
the forum selection clause would be inconvenient because most of
the potential witnesses live in California. Id. The court rejected
Plaintiffs argument. Id. At 866-67.
In reaching its conclusion, the court noted that the partnership
agreement was fully communicated to plaintiff. Id. At 865.
Brennan involved a contract between a Houston-based American
corporation and a German corporation. 407 U.S. at 2. The contract
contained a forum selection clause that designated the London
Court of Justice as the forum. Id. The Supreme Court of the United
States vacated the lower appellate court’s judgment affirming the
district court’s refusal to enforce the forum selection clause. Id. At
32. The Supreme Court noted that while the remoteness of the
forum might suggest that the contract was an adhesive one, the

contract is in fact “a freely negotiated international commercial
transaction.” Id. At 17. The Supreme Court further noted that the
inconvenience the plaintiff would suffer by enforcement of the
clause was clearly foreseeable at the time of contracting. Id. At 178.
The circumstance of the instant case is distinguishable from that
presented in either Parker or Brennan. YouTube Terms of Service
is an adhesive agreement. An adhesion contract is a standard-form
contract prepared by one party, to be signed by the party in a
weaker position, usually a consumer, who adheres to the contract
with little choice about the terms. Black’s Law Dictionary (8th ed.
2004). It is clear that Ms. Hill and Defendants never negotiated the
agreement. Defendants drafted the agreement and Ms. Hill like
any other users of Defendant’s platform, was compelled to agree in
order to use Defendants’ services. This factor weighs in favor of Ms.
Hill. Further, the Court notes that Ms. Hill is a pro se litigant. For
this Court to enforce the forum selection clause and require that
Ms. Hill bring her case against Defendants, well-financed entities,
in the very forum Defendants unilaterally selected would effectively
deprive Ms. Hill of a remedy and her day in court.
WHEREFORE, it is this 7th day of June 2018, hereby

ORDERED, that Defendants Google, Inc. and YouTube, Inc.’s’ [sic]
Motion to Dismiss is DENIED AS MOOT; and it is further
ORDERED, that Defendants Google, Inc. and YouTube, Inc.’s’ [sic]
[Renewed] Motion to Dismiss is DENIED.

Track 3 Mediation ORDER by Judge Holeman on February 2,
2018 was unsuccessful which the case was then scheduled for
pretrial January 29, 2019 and that day never arrived resulting in
Judge Epstein’s January 16, 2019 JUDGMENT. Ms. Hill then
appealed that JUDGMENT around March 30, 2019 in brief
description of the facts that give rise to dispute was the entire case
was monitored by Defendants. The structural procedure process
was hijack by a lobbyist schedule procedure mixed with DC Council
Committee on Human Service and Committee on Whole. November
14, 2018 Counsel Meeting was short in part because the DC Council
Committee on Human Service needed to provide defendants with
information.
Nature of disposition is the case has many connections with
Congressional hearings, election cycles, and introduction of bills for
the judge to make a sound opinion and JUDGEMENT. The
defendants are clouding the courts systems because of their
dominance and political lobby power. The principal issues are

interference in deliverable, Defendants worked with the DC Council
Committee on Human Service and Committee on Whole to obtain
my medical records and terminate the SNAP and cash assistance
benefits, then hold up the court proceedings based on the Office of
the Deaf Hard of Hearing, along with Closed Captioning Movie bill.
The Defendants worked with the government which impact and
weighted on the final ruling, also violated my civil rights by
terminating my health benefits and demanding proof of residency.
If the role of the Deputy Administrative Judge is to move cases
along, why was the case moved from the proceeding of Judge
Holeman, transferred to another judge less than 27 days before
pretrial hearing, and why after the election cycle? I am against
mediation because Judge Holeman ORDERED Track 3 scheduling,
the Defendants did not demonstrate a good faith and character to
settle damages.
The relationship between YouTube and its users is governed by the
Agreement posted on YouTube website (www.voutube.com/terms).
At the time Ms. Hill established her user account through the click
option TERMS OF SERVICE agreement was under Google Inc.,
and at that time Ms. Hill is unaware of what TERMS OF SERVICE
agreement Google’s YouTube entered in with the STATE OF

CALIFORNIA or its facilities in the United States. Moreover, it is
that agreement which has allowed Google’s YouTube to invoke
TikTok TERMS OF SERVICE in 2020 to justify the closed
captioning “glitch” from December 9, 2016 when that was never
content Ms. Hill uploaded to the video sharing-streaming service or
language spoken in the content. Resulting in Ms. Hill filed an
amended complaint against Google Inc. et al, YouTube Inc. et al on
October 6, 2017 bringing this action for negligence, libel, and
defamation against Google Inc. and its subsidiary YouTube
(Defendants”) in the operation of the automatic closed captioning
feature on the YouTube platform.
Filed on May 17, 2018, Defendant’s Expert Witness Disclosures,
Ken Harrenstien is expected to present evidence regarding the
development and function of YouTube’s closed captioning system.
Based on facts known to him in his role as a Software Engineer on
the Captions Infrastructure Team, Mr. Harrenstien is expected to
offer evidence on various topics related to the provision of closed
captions for user-uploaded videos, including the historical
circumstances surrounding YouTube’s introduction of closed
captions in 2009, the technical challenges involved in implementing
closed captioning for user generated content, the benefits to the

public created by the introduction of YouTube’s closed captions, and
the positive response to YouTube’s efforts from the disability rights
and accessibility communities.
On August 30, 2018 during a Meet and Confer with Roy Austin, and
legal counsel Chris Waldron for Ms. Hill, to go over Defendants
responses to Plaintiffs First Set of Interrogatories served on July 2,
2018 and Responded to on August 1st, 2018, discussing responses to
Interrogatories 5,7,17, and 19. To which Defendants response to
Interrogatory No. 5, they do not monitor social media for complaints
like other companies and prefers to handle complaints through
formal, some would say 20th century and early 2000’s means such
as email, phone calls and other written forms of communication.
So, a tweet may go unnoticed and not responded to at all.
Defendants felt that Ms. Hill’s tweet was ambiguous and didn’t
understand what she wanted and therefore took no action. Also,
defendants don’t consider tweets like Ms. Hill’s to be complaints.
Mr. Waldron and Roy Austin compromised on number of complaints
and Roy Austin agreed to research how many legal complaints were
made in regards to the automated closed captioning system.
With experience as a journalist and digital media entrepreneur, Ms.
Hill was granted press credentials on December 8, 2016 to report at

the Grand Opening of the MGM National Harbor. After editing
what she believed to be compelling original digital content,
uploaded the video to YouTube while publishing the content to the
DC Voice dot come, hours later on observed Google’s YouTube
“glitch” on December 9, 2016, sent them a tweet requesting
correction which as of December 9, 2020 has not been updated.
Google’s YouTube TERMS OF SERVICE suggest according to their
business transaction model and corporate structure are granted
authority by its facilities in the United States it is lawful at any
moment for the closed captioning feature can “glitch” journalist
with experience who are citizens of the United States altering my
entire human existence, identity, while diminishing, demoralizing
my creditability as a journalist, while generating closed captioning
“glitch” that was never spoken or uploaded to user account. If so,
this perhaps poses a threat to Ms. Hill’s constitutional rights
ultimately impairing her ability to monetize on content uploaded to
the account. Ms. Hill account type is Gaia with Core Identity, with
GRADS Score 1, and user is not in any EDU whitelists. Mapping
created May 6, 2015, with Content Owner type YPE, and Channel
pay gate status Reindex. Ms. Hill has no knowledge of what those
categories or classifications of her YouTube account mean or bare

any responsibility in how algorithms are rank or content is rank on
her account which could have potentially allowed room for ERROR
and inability to monetize. Defendants may call the closed
captioning an ERROR that appeared in the MGM video a “glitch”
but that “glitch” can have dire consequences to their users
reputation and ability to monetize their videos. Here Defendants
inability to provide accurate closed captioning caused damage to
plaintiffs reputation and hindered her ability to monetize her
videos. Prior to the “glitch” in the closed captioning Petitioner’s
MGM video, she had uploaded over 125 videos to defendant’s
website garnering an average of 150-200 views per video.
Ms. Hill has a user account with video sharing-streaming service
Vimeo. She had over 85 original digital content clips, due to the
platforms storage capacity features it requires another fee outside
of the initial fee to show all content, so around 16 original digital
content clips are accessible. Moreover, to ensure the closed
captioning was accurate during an interview with Gallaudet
University, they provided Ms. Hill with the appropriate and
accuracy of closed captioning to copy and paste in the feature
setting provided by Vimeo platform.

Google’s YouTube has not presented any good faith to resolving
their automated generated “glitch” since Ms. Hill observed it on
December 9, 2016 sending a tweet requesting correction. Google
has not responded in good faith to either set of Interrogatories
during the Discovery phase. Moreover, Ms. Hill was barred from
delivering transcripts to the Defendants Google Inc. et al, YouTube
Inc. et al, and was told her visit was unsolicited. Google’s request
for second continuance did unnecessarily delay the preceding in this
matter and were not in the interests of justice which has brought
Petitioner to pray.

23.
REASONS FOR GRANTING THE PETION
The United States Supreme Court should grant the Writ of Certiorari
because Petitioner has an absolute right to due process and per
lower court Feb 2, 2018 scheduling conference, it is Ms. Hill’s
obligation to move this litigation along per court and Petitioner does
have the right
1. Whether the court should resolve the following for which the state
courts are dominated by Google’s financial endeavors, and most
recent a TikTok national security concern, if Google’s YouTube
TERMS OF SERVICE violate and deprive Ms. Hill of her first
amendment rights to freedom of the press and abridging freedom of
speech by Google’s YouTube sharing-streaming service generated
automatic closed captioning “glitch” appeared on MGM video
uploaded to YouTube sharing-streaming service on December 8,
2016, when Ms. Hill stated “What’s up DC this is your girl Mindy Jo
with the DC Voice dot com, ” and YouTube’s automated closed
captioning “glitch” translated that spoken word into ‘What’s up DC
bitch girl maybe gel with?”
2. Whether Federal Rules of Civil Procedure are modified,
exclusionary or certain rights are reserved based on names in filing .
of complaint. If not, was Ms. Hill deprived and violated of her
fourteenth amendment rights to the United States Constitution
bypassing the Trial phase of Civil Procedure resulting in Judge

Anthony Epstein’s JUDGEMENT for Google LLC et al when
plaintiffs complaint filed CASE CAPTION is Google Inc. et al,
when all persons born in the United States and subject to the
jurisdiction thereof, are citizens of the United States and of the
State wherein they reside.
3. Whether Google’s YouTube automated closed captioning “glitch”
deprived and violated Ms. Hill’s fifth amendment rights to the
United States Constitution granting no person shall be deprived of
life, liberty, or property in her pursuit to life, liberty as an
journalist while working on December 8, 2016 covering the MGM
National Harbor Grand Opening, later uploading the original
digital content to the YouTube video sharing-streaming service
resulting in the closed caption automatically generating a “glitch,”
and no ability to monetize on original digital content uploaded to
Google’s YouTube video sharing-streaming service.

*

24.

CONCLUSION

The petition for writ of certiorari should be granted.

Respectfully submitted,

